<html>
<title> - BUSINESS MEETING</title>
<body><pre>[Senate Hearing 114-253]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 114-253

                            BUSINESS MEETING

=======================================================================

                                MEETING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            JANUARY 21, 2015

                               __________

  Printed for the use of the Committee on Environment and Public Works

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



       Available via the World Wide Web: http://www.gpo.gov/fdsys

                               __________
                               
  
                         U.S. GOVERNMENT PUBLISHING OFFICE 

99-927 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                             
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED FOURTEENTH CONGRESS
                             FIRST SESSION

                  JAMES M. INHOFE, Oklahoma, Chairman
DAVID VITTER, Louisiana              BARBARA BOXER, California
JOHN BARRASSO, Wyoming               THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
MIKE CRAPO, Idaho                    BERNARD SANDERS, Vermont
JOHN BOOZMAN, Arkansas               SHELDON WHITEHOUSE, Rhode Island
JEFF SESSIONS, Alabama               JEFF MERKLEY, Oregon
ROGER WICKER, Mississippi            KIRSTEN GILLIBRAND, New York
DEB FISCHER, Nebraska                CORY A. BOOKER, New Jersey
MIKE ROUNDS, South Dakota            EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska

                 Ryan Jackson, Majority Staff Director
               Bettina Poirier, Democratic Staff Director
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                            JANUARY 21, 2015
                           OPENING STATEMENTS

Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...    21
Boxer, Hon. Barbara, U.S. Senator from the State of California...    23

                               LEGISLATION

EPW Committee Resolution, Authorizing expenditures by the 
  Committee on Environment and Public Works......................     4
Text of the amendment by Senator Inhofe..........................    10
Senate Committee Print, Rules Adopted February 14, 2013..........    13

                          ADDITIONAL MATERIAL

Colloquy between Chairman Inhofe and Senator Boxer...............    27
 
                            BUSINESS MEETING

                              ----------                              


                      WEDNESDAY, JANUARY 21, 2015

                                        U.S. Senate
                  Committee on Environment and Public Works
                                                    Washington, DC.
    Committee on Environment and Public Works Washington, DC.
    The full committee met, pursuant to notice, at 10:30 a.m. 
in room 406, Dirksen Senate Building, Hon. James Inhofe 
(chairman of the full committee) presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Present: Senators Inhofe, Boxer, Barrasso, Capito, Crapo, 
Rounds, Sullivan, Wicker, Boozman, Whitehouse, Carper, Merkley, 
Booker, Merkley.
    Senator Boxer. Ladies and gentlemen of the committee, see 
this gavel? The last time it got transferred was 8 years ago 
and I had to fight Senator Inhofe for it. This time, I have to 
say, you and I are friends.
    Senator Inhofe. Of course.
    Senator Boxer. And if I was going to hand this gavel over 
to anyone, I am very happy that it is you.
    So I am going to hand that gavel to you, and when you 
recognize me I have some gifts for you, too.
    [Laughter.]
    Senator Inhofe. Oh, good. Well, let's do this. Let's start 
by bringing us to order. We will be in order. I will just go 
ahead and recognize you for your special awards.
    Senator Boxer. For the gift-giving, OK.
    Senator Inhofe. By the way, I remember the statement that 
she said that got everyone's attention was that elections have 
consequences, and I have the gavel.
    Senator Boxer. That is right.
    Senator Inhofe. Now, I have a picture of that that she 
presented to me, and it looks like you are just about to hit me 
with it.
    [Laughter.]
    Senator Boxer. Well, I have no intention of doing that. But 
I am glad you reminded everyone that I gleefully said when I 
got that gavel, elections have consequences. I was gleeful, 
today I am not so gleeful. But elections have consequences.
    So my first gift is this tee-shirt that says, Elections 
Have Consequences.
    [Laughter.]
    Senator Inhofe. That is great.
    Senator Boxer. That is my first gift.
    Now, Jim, I think everybody knows that we work well 
together. Everybody knows that we work well together on 
highways, infrastructure, and on a few other things. A few. But 
I wanted to say how much I look forward to working with you on 
the highway bill. Here is something for your grandkids.
    This truck symbolizes the jobs that we will create when we 
work successfully, 3 million. And 600,000 construction workers 
are still out of work since the recession. This is for you for 
your grandkids.
    And now we get a little more controversial. This is a very 
clean car. It is a Prius. And I don't know that it is your 
favorite model, but as we build our roads, we want to make sure 
we don't dirty the air.
    Senator Inhofe. And that is why I am using CNG in my car.
    Senator Boxer. Oh, all right. I am so proud of you.
    Senator Inhofe. Which is now in Oklahoma more expensive 
than regular gasoline, did you know that, Neil? It is.
    Senator Boxer. Well, this last gift is the most 
controversial gift. And it is for your grandkids, and it is a 
bicycle. And it is a reminder, when we take up the highway 
bill, to remember that 35 million Americans do use bicycles, a 
lot of them for work. I know it is a controversial issue, but I 
think your grandkids would enjoy this.
    And Jim, I mean it when I say, handing this gavel over to 
you, I am sad I am doing it, but I am so happy for you.
    Senator Inhofe. That is good, that is good.
    [Applause.]
    Senator Inhofe. There you go, thank you.
    All right. We do have some things that we always do, and 
that is we have to at some point have to have 11 people here to 
pass our resolutions. So if staff would remind me when the 11th 
one shows up, I would appreciate it and we will go ahead and 
get that done.
    We have some great new members on this committee. I look 
over and see my friend on the Democrat side. We have a lot of 
issues where we are working together, so we are looking forward 
to that. We have three of the new members of the U.S. Senate, 
Senator Rounds, Senator Sullivan and Senator Capito. They are 
all very interested in this committee. They made a special 
request to be on this committee. It is going to be joyful to 
get their input and the background they have. Senator Sullivan 
had experiences with many of the things that we deal with on 
this committee up in Alaska. So we will be doing that.
    So let me do this. A couple of things we will be doing is, 
the early bird rule, we have done that in the past. We have 
deviated from that in the past. We are going to be adhering to 
that.
    We also, I am going to make an effort, and I would like to 
have all of you think about this between now and the meeting of 
the 28th, a week from today when we have our highway meeting. 
We have Secretary Fox who is going to be here. And Secretary 
Ridley, I am not sure whether you are planning to be there for 
that one or not, but there will be a lot of people here.
    So I have felt that our opening statements, with as large 
as this committee is, uses up all of our time. In that 
particular committee hearing, we are going to have a bunch of 
Governors here, at least two that I know of, one from 
Connecticut is on a short term. So we are going to maybe talk 
about this between now and then. In the Senate Armed Services 
Committee, we have the ranking member and the chairman with 
opening statements and not the rest of them. So we are going to 
consider that.
    For today's purpose, I know that we are going to both have 
opening statements, Senator Boxer and myself. And we will open 
it up for hopefully fairly short opening statements from the 
other members.
    But right now I think we have 11 here, is that correct? So 
if it is all right, I am going to go ahead and skip over to the 
two things that we have to do today in conjunction with 
business. One is to call up the EPW Committee Resolution which 
funds the committee through February 2017 in three financial 
periods. Those financial periods are between March and 
September, then October to October, then October to February. 
Not that that is significant, but this is the way we have 
divided it up before. Everyone already has this, and I would 
ask that we would approve that report.
    [The text of the resolution follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Senator Inhofe. All in favor say aye.
    [Chorus of ayes.]
    Senator Inhofe. Opposed, no.
    [No audible response.]
    Senator Inhofe. The ayes have it and it is adopted.
    The second one is the first Inhofe amendment, and that is 
the amendment to the committee rules, that is Amendment No. 1. 
This amendment is a technical change to Rule 2(a) concerning 
quorums. In previous Congresses, the committee had 18 members 
and a quorum was one-third. In this Congress, we have 20 
members, so the amendment simply updates the rule to require 7 
members to meet. I would ask for that approval.
    [The text of the amendment by Senator Inhofe follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
   
    Senator Boxer. Second.
    Senator Inhofe. All in favor, say aye.
    [Chorus of ayes.]
    Senator Inhofe. Opposed, no.
    [No audible response.]
    Senator Inhofe. The ayes have it and we have adopted that.
    The third one doesn't require a change but it is what we 
want to do, this is more in the way of an announcement. We are 
going to go back to the way we were 8 years ago when I chaired 
this committee. We have four subcommittees. Then we increased 
it to five when we lost our majority on the Republican side. 
Now we are going to go back to four. Originally served, we had 
these same four committees.
    Those subcommittees will be Transportation and 
Infrastructure, and that will be chaired by Senator Vitter. The 
second one is Clean Air and Nuclear Safety. That will be 
chaired by Senator Capito. The third is Waste Management and 
Regulation Oversight. That will be chaired by Senator Rounds. 
And the last one is Fisheries, Wildlife and Water, chaired by 
Senator Sullivan.
    The interesting thing here is that three of the four 
subcommittees are chaired by people who are brand new, the 
newly elected ones. So we will great new input and also great 
new talent.
    With that, let me just go ahead do an opening statement.
    Senator Boxer. Mr. Chairman, before you move to that, we 
had gone over colloquy. Would this be the appropriate time to 
do it?
    Senator Inhofe. Sure. Am I a part of this colloquy?
    Senator Boxer. A big part. You keep saying, ``That's 
correct.''
    [Laughter.]
    Senator Boxer. And I may change what I ask you.
    [Laughter.]
    Senator Boxer. I am sure you have seen this.
    Senator Inhofe. OK, that is fine.
    Senator Boxer. I also want to thank the new members for 
choosing this committee. I am excited to be working with you. 
Really, we do have, in this committee, the opportunity to work 
across party lines on some things. On other things, we will go 
toe to toe and it won't be happy. It won't be happy for you.
    Senator Inhofe. I believe Senator Booker is the first, you 
just got on this committee?
    Senator Boxer. No, he was here.
    Senator Inhofe. Do you have any new members on your side?
    Senator Boxer. No.
    Senator Inhofe. They have all been there before, OK.
    Senator Boxer. That is right.
    Senator Inhofe. Good.
    Senator Boxer. So let me just again welcome the new 
members.
    Mr. Chairman, it is my understanding that in keeping with 
the practice of the committee, you and the subcommittee 
chairmen will make every effort to consult with me and the 
subcommittee ranking members prior to announcing a committee or 
subcommittee hearing and prior to setting the agenda for a 
committee or subcommittee meeting.
    Senator Inhofe. That is correct.
    Senator Boxer. And further, Mr. Chairman, it is my 
understanding that in keeping with our committee practice, you 
and the subcommittee chairmen will make every effort to provide 
me and the subcommittee ranking member opportunity for topic 
and schedule consultation at least 2 weeks prior to any 
hearing.
    Senator Inhofe. That is correct.
    Senator Boxer. And again in keeping with our practice, the 
chairman and ranking members will strive to attain a balance of 
interests of the majority and minority in selecting the 
witnesses for hearings.
    Senator Inhofe. Yes, we will make that effort.
    Senator Boxer. All right.
    Senator Inhofe. I would like to ask for a motion to approve 
the rules as amended.
    Senator Boxer. So moved.
    Senator Inhofe. Second?
    Senator Rounds. Seconded.
    Senator Inhofe. All those in favor, say aye.
    [Chorus of ayes.]
    Senator Inhofe. Opposed, no.
    [No audible response.]
    Senator Inhofe. The ayes have it.
    [The Senate Committee Print, Rules Adopted February 14, 
2013 follows.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

            OPENING STATEMENT OF HON. JAMES INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Well, first of all, we have already 
welcomed the new members. Senator Boxer and I have a long 
history of working together, particularly in the areas that she 
mentioned on highways. That is going to be our thing coming 
right out of the chute, the first thing we do.
    In fact, our first hearing will be a week from today, the 
28th. And it will be a hearing on highways. We are going to 
have Secretary Fox, which has been a good appointment. I have 
enjoyed working with him. He is going to be here with, I 
believe four Governors. So we will look forward to that. That 
is going to be a very significant one.
    It is one of the things we have to do. We have had some 
great progress that we have made. We had a lot of objection on 
the Republican side last time we had our 27-month bill that we 
had. That was a problem. And I had a hard time explaining to 
some of the Republicans that the conservative position is to 
pass a highway reauthorization bill. Because the only 
alternative to that is to have short-term extensions. And as 
Secretary Ridley will say, it costs us about 30 percent off the 
top in order to have those short-terms, and you can't get any 
reforms. The reforms that we had in the bill, the 27-month 
bill, I was very appreciative of Senator Boxer in going along 
with some of the streamlining aspects that really were very 
favorable. So that is what we are going to be doing.
    On water, the oversight is going to be started as early as 
February 4th, when this committee will hold a joint hearing 
with the House Transportation and Infrastructure Committee on 
the EPA's Waters of the United States proposed rule. This is 
very significant. Probably this is singled out by the farmers, 
through their organizations like the Farmers Union and the 
National Farm Bureau, as being the most significant thing to 
farmers. I have talked to each of our new members about this. 
They all are fully aware of the problems there.
    On climate, another top priority we will be conducting 
rigorous oversight of the EPA regulations. I strongly believe 
the President's misguided agenda on climate change has led to 
an onslaught of new regulations that is endangering the future 
of job creation, energy independence and reliability of the 
power grid. We will be talking about that today and I 
understand we are going to have some amendments today.
    As we approach the oversight of the President's climate 
action bill, it is important for the committee to note that the 
Nation's gross, since 1970, this is significant, nobody ever 
talks about this, the Nation's gross domestic product has 
increased by 234 percent. The miles Americans have traveled has 
increased by 168 percent. The population has increased by 54 
percent. This is all since 1970.
    And also since 1970, according to the EPA, emissions from 
pollutants such as SO<INF>x</INF> and NO<INF>x</INF> and PM 
have decreased by 68 percent. So think about the success of 
that. I can remember when the amendments, back in 1989, I guess 
it was, they were the amendments, and Senator Boxer and I were 
both original co-sponsors of the amendments to the Clean Air 
Act that has been so successful. So that was a good start.
    So despite this success, they are talking about the 
significant greenhouse gas regulation package scheduled for 
this summer. As proposed, EPA's regulations would raise energy 
prices, destroy jobs and impose billions of dollars in costs.
    I always go back to the statement that we had when the 
first designee or the first nomination that the President made, 
President Obama, was to the EPA, Lisa Jackson. I recall sitting 
right here in this room with her as a witness and saying, Madam 
Administrator, if we were to pass some of the cap and trade 
bills that we are talking about today, or the regulations that 
would bring us cap and trade, would this have a reduction in 
overall CO<INF>2</INF> emissions. She said, no, it wouldn't, 
because this isn't where the problem is. The problem is in 
China, it is in India, it is in Mexico. And you could carry 
that argument out further and say if we reduce them here, and 
our jobs are chased offshore, you could have the result of 
increasing, not decreasing, CO<INF>2</INF> emissions.
    The Wall Street Journal in June called the proposal when it 
came out, just came out from the Administration, ``a huge 
indirect tax and wealth redistribution scheme that the EPA is 
imposing by fiat will profoundly touch every American.''
    NERA agrees, by the way, you quote them quote often. In its 
October analysis, it is a non-partisan economic analysis firm, 
it projects that the costs to comply with EPA's plan would be 
$479 billion. We know of course that that is one of the main 
reasons, that was the wake-up call back in 2002, when everyone 
kind of thought, well, global warming must be real, therefore 
everyone thought that was the fast ticket to the White House, 
to introduce a bill for cap and trade, until they found out 
what the cost was going to be.
    At that time, it was the Charles Rivers Associates, MIT, 
the Wharton School and others that came out with cost ranges as 
to what it would cost for cap and trade. The range was always 
between $300 billion and $400 billion a year. That is when 
people started looking at the science and realizing there was 
another side to it.
    So NAAQS, we are going to be talking about NAAQS right now 
with the proposal, of those NAAQS that will have the effect of 
placing over 600 counties in non-attainment. Everyone of my 77 
counties in Oklahoma would be out of attainment. The TSCA, we 
know we have been working on that for quite a while and we will 
be working on that bill. Endangered species, finally, for the 
first time in a long while we will place a focus on needed 
oversight for implement of the Endangered Species Act.
    So that, along with nuclear, we are going to be very busy 
on this committee.
    In closing, I want to briefly review and get into the 
record the three guiding principles this committee will follow 
when conducting oversight and reporting legislation from this 
committee. These are the same ones that we put in in 2003 when 
I became chairman of this committee 12 years ago this day. No. 
1 is, does the proposal make the bureaucracy more efficient, 
effective and accountable? No. 2, is the proposal fiscally 
responsible, based on sound science, and do we know the true 
benefits and costs to American consumers? And No. 3, finally, 
how does the proposal affect property owners, local communities 
and taxpayers?
    So those are what the guiding principles will be as we have 
had in the past.
    Senator Boxer.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Thank you so much, Mr. Chairman.
    I really appreciate your proving the point that clean air 
regulation works. You lauded the Clean Air Act Amendments of 
1990. It is important to go back and look at the record, the 
polluters predicted a disaster. But George Herbert Walker Bush 
signed those, and we have had huge growth since then. And in 
the 1970's that you mentioned, Richard Nixon signed it.
    So cleaning up the environment in the past has always been 
a bipartisan effort. Let's face facts: it has changed. The very 
things that you are saying about the disaster of the climate 
change plan of the President, they echo those words of the 
polluters back then. And I have to say, we did get 56 votes 
when all is said and done for our cap and trade, but it did 
fail. And I know you were glad, because you do believe it would 
be terrible for America.
    I disagree strongly, because I come from a State that has 
an incredible climate change program. And we are thriving. And 
our budgets are balanced. And everybody is excited to partake. 
When the polluters came in, the oil companies, and tried to 
overturn the cap and trade system, the voters said, no, we like 
it, we like clean air, it is important.
    I want to point out, we will continue to argue about this 
and I am so respectful of your views, and I ask that you be 
respectful of mine. Ninety-eight percent of the scientists are 
now saying the following. We now face a choice between an 
unpleasant planet, unpleasant planet, and an uninhabitable 
planet. And I will tell you, we won't be around in 56 years 
unless there is a miracle. And it is going to be our great 
grandkids, our grandkids.
    I just want the record to show that sitting back and 
saying, we are not going to do anything on this because, a, it 
is a hoax, which makes no sense to me, and b, it is going to 
cost us jobs, which makes no sense to me, given the record of 
environmental regulation, I just think it is sad to be on that 
side of the coin. We will continue to push on this side. Now, 
that is the controversy.
    On the infrastructure, Mr. Chairman, there is very little 
distance between us. We may argue around the edges, and that is 
fine, we will compromise on those things. But I am going to 
work with you as hard as I can, because as you know, I 
announced that I won't be running in 2016. What I want to do is 
have a legacy of working with you on infrastructure. I think we 
can bring everybody together on this committee and in the 
Senate. So I am going to work my heart out with you on that.
    I want to put up a cautionary note here. Your wonderful 
people are here from your State to celebrate with you today. 
And they know that this uncertainty that we are facing with the 
Highway Trust Fund is dangerous for our businesses and 
dangerous for our workers. I am very concerned that the whole 
Trust Fund expires in three and a half months or so. We know 
how long it takes to get one of these bills done. You and I had 
agreed on the last bill, Senator Vitter did as well, Senator 
Carper, all of us working together. So we have a place to 
start.
    And I want to urge you, and I think it is, all the things 
that you outlined are very important issues, I have no problem 
with that. I think it is going to be exciting, some of the 
issues that you are bringing up. Not necessarily 
uncontroversial but important that we do them. But nothing 
could be more important. Do you know there are still 600,000 
construction workers that haven't been working since the great 
recession? That is down from 2 million.
    So we have done well here in what we have done on the 
Highway Bill. I am a little bit concerned about the House, 
every time I try to see where they are coming from. That is why 
I so value Senator Capito being here, because she knows how to 
work with the House people, because she just came from there. I 
am a little concerned that they don't sense that urgency and 
that they are looking for more and more of these short-term 
extensions. The only way for us to take a stand against that 
philosophy is to pass a bill here.
    So I would urge you to take the bill that we passed out of 
here the last time, make some changes. I will work with you on 
it, others will. And let's get going, because really, we all 
care about jobs, both sides of the aisle. There is no 
disagreement.
    And I think on this committee we all know we want a bill. 
So whereas everything else you talked about is a bit more 
controversial, the infrastructure is not. I am excited to work 
with you on that highway bill.
    And again, Mr. Chairman, congratulations, and I really look 
forward to our ongoing work together.
    Senator Inhofe. Let me just respond to one thing. And I am 
not going to make a habit of this, but let me allay your fears 
about the House. Because after we had that bill vote in the 
Senate, that day I went over and requested an audience with the 
T&I Republicans, 33 of them. I explained to them the same thing 
I just said here, what the conservative position was. Every one 
of the 33 voted for it. So I think the House is going to be 
very cooperative.
    Senator Boxer. I hope so.
    Senator Inhofe. OK, we are going to follow the early bird 
rule. The first one to show up, who will be No. 1, is Senator 
Capito.
    Senator Capito. Mr. Chairman and Ranking Member, it is 
wonderful to be on the committee, and an honor to serve. I have 
no real opening statement, except I am very appreciative of the 
areas that we are going to be looking at. Obviously there are 
heavy impacts, different impacts in a State like mine, such as 
West Virginia and California. I am very thrilled to be chairing 
the subcommittee as well, I appreciate that.
    Just as a mote of interest, I am not the only native West 
Virginian on the committee. My compatriot, Senator Carper, was 
born in West Virginia.
    Senator Carper. Haven't been there since Saturday.
    [Laughter.]
    Senator Capito. Yes, your aunt, I think you told me you 
were going to your aunt's funeral. So with that, I would just 
say thank you very much, I think it is going to be a great 
couple of years and I appreciate the opportunity to serve. 
Thank you.
    Senator Inhofe. Thank you.
    Senator Booker.
    Senator Booker. Three things. One, I want to congratulate 
Senator Inhofe, with your gavel. I really look forward to 
working with you. I am glad that we have some history already 
working together, and I think there is so much space, as you 
said, for bipartisan agreement. There is urgency for it.
    No. 2, I want to say to Senator Boxer, my heart aches, not 
just about the passing of the gavel, but more importantly about 
your announcement that this will be your last 2 years in the 
U.S. Senate. I will savor every single day I get a chance to 
serve with you.
    Then finally, I want to say to Senator Inhofe, I think it 
is really, really good that you are eliminating opening 
statements.
    [Laughter.]
    Senator Inhofe. Thank you very much.
    Senator Rounds.
    Senator Rounds. Thank you, Mr. Chairman. I would simply 
say, brevity is critical and I will yield my time.
    Senator Inhofe. Good. We appreciate that.
    Senator Carper.
    Senator Carper. Thanks, Mr. Chairman. Congratulations on 
assuming the leadership of this committee again. I look forward 
to working with you. The four of us served together in the 
House a few years ago, and it is great to be able to serve with 
each of you again in these roles.
    I am happy to welcome our new Senator from West Virginia. I 
was driving to West Virginia on the way to the funeral 
Saturday, Shelley, and it was just a beautiful, sunshiny day. 
Abundant sunshine, blue skies. We were driving through West 
Virginia, and it says Wild and Wonderful. I think, boy, what a 
glorious place. Happy to be here, happy to be home with my 
family.
    To all the new members, welcome. We are happy for you to 
join us.
    The message for me coming out of the election was that 
folks in our States want us to work together, they want us to 
make progress on real issues and they want us to strengthen the 
economic recovery. As both Senator Inhofe and Senator Boxer 
have said, one of the best ways to strengthen the economic 
recovery is to come to agreement on a robust, fulsome 
transportation investment program for our Nation.
    And as Democrats, a lot of times we think about other 
people who could be working to build roads, highways, bridges, 
transit systems. As Barbara said, 600,000 or 700,000 is a lot 
of people who would love to be back working. There real 
benefit, though, from us coming to agreement not only on the 
authorization but also on the funding for the bill, which I 
will be working on as a member of the Finance Committee with a 
number of you, but the real payoff comes from our ability to 
just in time economy, to be able to move goods and products 
throughout our Country, throughout our Nation and to export 
markets as well. That is one of the reasons why we get the real 
GDP growth from transportation investment. So I am anxious to 
work with you on that.
    One of my takeaways from the President last night is there 
are a bunch of areas where we actually have some agreement, a 
bunch of areas where we have some agreement. What Mike Enzi 
likes to say, he has this 80-20 rule. He says, we agree on 80 
percent of the stuff, we disagree on 20 percent of the stuff. 
Let's focus on the 80 percent that we agree on and we will come 
back to the other 20 percent some other time.
    Not everybody agreed with George Herbert Walker Bush some 
20 years ago, over 20 years ago, when he was President. He came 
up with this idea of a cap and trade system to address the 
emissions of sulfur dioxide. Cap and trade, since I first heard 
about it, I thought, well, what is this?
    But actually he pushed it hard, and I ended up thinking, 
maybe that makes sense, we ought to try it. And there were 
people who said, this will create havoc in the economy, this 
will never work. And it turned out, we ended up meeting our 
reduction goals in sulfur dioxide in half the time, half the 
time it was for gas and at about less than half the cost.
    So let's keep that in mind. Sometimes we might want to be 
dismissive of new ideas. That is just an old idea that actually 
worked pretty well not that long ago.
    Thank you.
    Senator Inhofe. Good. Any other comments?
    We are adjourned.
    [Whereupon, at 10:58 a.m., the meeting was adjourned.]
    [Additional material submitted for the record follows.]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                                 [all]
</pre></body></html>
